Report No. DODIG-2013-002               October 4, 2012






    Improvement Needed With DoD Single-Bid Program 

      to Increase Effective Competition for Contracts


Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of
Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
Secondary Reports Distribution Unit at auditnet@dodig.mil.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing at auditnet@dodig.mil, or by mail:

                       Department of Defense Office of Inspector General
                       Office of the Deputy Inspector General for Auditing
                       ATTN: Audit Suggestions/13F25-04
                       4800 Mark Center Drive
                       Alexandria, VA 22350-1500




Acronyms
ACC-APG                       Army Contracting Command-Aberdeen Proving Ground
BAA                           Broad Agency Agreement
DASA (P)                      Deputy Assistant Secretary of the Army (Procurement)
DAS (C)                       Deputy Assistant Secretary of the Air Force (Contracting)
DASN (AP)                     Deputy Assistant Secretary of the Navy (Acquisition and
                                 Procurement)
DFARS                         Defense Federal Acquisition Regulation Supplement
DPAP                          Defense Procurement and Acquisition Policy
GAO                           Government Accountability Office
FAR                           Federal Acquisition Regulation
FPDS-NG                       Federal Procurement Data System – Next Generation
GAO                           Government Accountability Office
ID/IQ                         Indefinite Delivery/Indefinite Quantity
NAVFAC                        Naval Facilities Engineering Command
OUSD (AT&L)                   Office of the Under Secretary of Defense for Acquisition,
                                Technology, and Logistics
SBIR                          Small Business Innovation Research
STTR                          Small Business Technology Transfer
USAMRMC                       United States Army Medical Research and Materiel
                                Command
                                     INSPECTOR GENERAL
                                       DEPARTMENT OF DEFENSE
                                       4800 MARK CENTER DRIVE 

                                   AL EXANDRIA, VIRGINIA 22350·1500 





                                                                                    October 4, 20 12

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR ACQUISITION ,
                 TECHNOLOGY, AND LOGISTICS
               ASSISTANT SECRETARY OF THE AIR FORCE
                 (FINANCIAL MANAGEMENT AND COMPTROLLER)
               NAVAL INSPECTOR GENERAL
               AUDITOR GENERAL, DEPARTMENT OF THE ARMY

SUBJECT: Improvement Needed With DoD Single-Bid Program to Increase Effective
         Competition for Contracts (Repott No. DODIG-20 13-002)

We are providing th is repott for your information and use. The Services did not foJ low
applicable single-bid guidance when awarding approximately $656.1 million in contracts, and
did not verify that modifications were only made within the 3-year limitation from base contract
award. As a result, the Services have not realized potential cost savings associated with
increased competition for 31 of the 78 single-bid contracts and with re -competing 39 ofthe 47
contract modifications reviewed . We considered management comments on a draft of the report
in preparing the fmal report.

DoD Directive 7650.3 requires that all recommendations be resolved promptly. Comments from
the Deputy Assistant Secretary of the Army for Procurement, Office of the Assistant Secretary of
the Atmy (Acquisition, Logistics, and Technology), and Deputy Assistant Secretary for
Contracting, Office of the Assistant Secretary of the Air Force for Acquisition, were responsive
and we do not require additional comments. Comments from the Director, Defense Procurement
and Acquisition Policy, Office of the Under Secretary of Defense (Acquisition, Technology, and
Logistics), and the Deputy Assistant Secretary of the Navy, Acquisition and Procurement, Office
of the Assistant Secretary of the Navy (Research, Development, and Acquisition), were partially
responsive and require additional comments. Therefore, we request comments on
Recommendations L.c and 3.c by November 5, 2012.

Please provide comments that conform to the requirements of DoD Directive 7650.3 . If
possible, send a portable document format (.pdf) file containing your comments to
aud c lev@dodig .mil. Copies of your comments must have the actual signature of the authorizing
official for your organization . We are unable to accept the /Signed/ symbol in place of the actual
signature. If you arrange to send classified comments electronically, you must send them over
the SECRET Internet Protocol Router Network (SJPRNET).

We appreciate the courtesies extended to the staff. Please direct questions to me at
(703) 604-9077 (DSN 664-9077).

                                         0/j:ac~; ~ ·t<..I,U~
                                                         L.
                                                             ._;e_
                                                   eline Wicecarver ·
                                                                        ~'u)<...~
                                                                             ccz       '-"~ J
                                          : / Ass·stant Inspector General
                                              Acquisition and Contract Management
Report No. DODIG-2013-002 (Project No. D2011-D000AT-0253.000)                 October 4, 2012

               Results in Brief: Improvement Needed With DoD
               Single-Bid Program to Increase Effective
               Competition for Contracts
                                                         Additionally, DPAP allowed the single-bid
What We Did                                              guidance to expire because DPAP did not
Our audit objective was to determine whether             incorporate the single-bid guidance
DoD followed applicable guidance when                    requirements in policy within 180 days. DPAP
awarding competitive contracts after receiving a         also did not classify 83 BAA and SBIR
single offer. Specifically, we reviewed                  contracts as having effective competition
107 contracts, valued at almost $1.4 billion,            because DPAP incorrectly identified them in the
47 contract modifications, valued at                     DoD Effective Competition Report.
$461.3 million, and 83 Broad Agency
Agreement (BAA) and Small Business                       As a result, the Services have not realized
Innovation Research (SBIR) contracts, valued at          potential cost savings associated with increased
$96.3 million, to determine whether the Services         competition and re-competing $390.9 million in
followed single-bid guidance.                            contract modifications. DoD also cannot
                                                         accurately assess the percent of improvements
                                                         in DoD achieving effective competition.
What We Found
The Services did not:                                    What We Recommend
		 follow single-bid guidance for 31 of
                                                         We recommend that the Director, DPAP review
     78 single-bid contracts because the Services’
                                                         the Services’ competition reports; direct the
     Competition Advocates did not adequately
                                                         Services’ Competition Advocates to develop a
     monitor their commands’ implementation of
                                                         plan related to the length of contract
     the guidance to verify proper application;
                                                         modifications; and modify the DoD Effective
		 develop adequate plans to increase
                                                         Competition Report.
     competition because Defense Procurement
     and Acquisition Policy (DPAP) did not
                                                         We recommend that the Services’ Competition
     provide effective oversight of the plans and
                                                         Advocates develop procedures to adequately
     the Competition Advocates did not:
                                                         monitor their commands’ implementation of the
      o		 develop specific steps to improve
                                                         single-bid guidance; develop steps to increase
          competition rates in their plans;
                                                         competition in their competition plans and
      o		 develop specific steps to prevent 39 of
                                                         3-year period of performance plans; and monitor
          47 contract modifications, valued at
                                                         their contracting officers’ FPDS-NG input.
          $390.9 million, from exceeding the
          3-year limitation on awarding contract
          modifications without first re-                Management Comments and
          competing; and                                 Our Response
		 correctly code the remaining 29 of                   The Army and Air Force comments were
    107 contracts in the Federal Procurement             responsive and do not require additional
    Data System-Next Generation (FPDS-NG)                comments. DPAP and Navy comments were
    database because the Services’ Competition           partially responsive and require additional
    Advocates did not establish an adequate              comments. Please see the recommendations
    review process to verify that contracting            table on the back of this page.
    officers correctly input contract type.


                                                     i
Report No. DODIG-2013-002 (Project No. D2011-D000AT-0253.000)         October 4, 2012

Recommendations Table

         Management                        Recommendations           No Additional
                                          Requiring Comment      Comments Required
Director, Defense Procurement       1.c                       1.a and 1.b
and Acquisition Policy, Office of
the Under Secretary of Defense
(Acquisition, Technology,
and Logistics)
Deputy Assistant Secretary of the                             2.a, 2.b, 2.c, and 2.d
Army for Procurement, Office of
the Assistant Secretary of the
Army (Acquisition, Logistics,
and Technology)
Deputy Assistant Secretary of the   3.c                       3.a, 3.b, and 3.d
Navy, Acquisition and
Procurement, Office of the
Assistant Secretary of the Navy
(Research, Development,
and Acquisition)
Deputy Assistant Secretary for                                4.a, 4.b, and 4.c
Contracting, Office of the
Assistant Secretary of the
Air Force for Acquisition

Please provide comments by November 5, 2012.




                                               ii
Table of Contents

Introduction		                                                               1     


       Objective                                                             1     

       Background on Single-Bid Contracts                                    1

       Internal Control Weaknesses Within the DoD Single-Bid Program         4


Finding. Implementation of the DoD Single-Bid Guidance Needs Improvement     5


       Implementation of Single-Bid Guidance Could Be Improved               6

       Competition Reports Lacked Specific Detail                            8

       Management Actions for the Development of Goals and 

              Plans to Increase Competitive Contract Awards                  8

       Single-Bid Contract Modifications Exceeded 3-Year Limitation          9


       Single-Bid Guidance Expired                                          11     

       Management Actions to Include Single-Bid Guidance in the Defense 

              Federal Acquisition Regulation Supplement                     11 

       Selected Research Contract Actions That Should Be Classified as 

              Having Effective Competition                                  12 

       Improving the Coding of Single-Bid Competitive Contracts             13 

       Management Actions Related to the Accuracy of Single-Bid


              Competitive Contract Data in FPDS-NG                          14 

       Conclusion                                                           14     

       Management Comments on the Finding and Our Response                  15 

       Recommendations, Management Comments, and Our Response               16 


Appendices

       A. 	Scope and Methodology 	                                          24 

              Use of Computer-Processed Data                                26 

              Use of Technical Assistance                                   26 

              Prior Coverage                                                26         

       B. Services’ Implementation of Single-Bid Guidance for 78 Sample 

              Contracts                                                     27         


Management Comments

       Office of the Under Secretary of Defense for


              Acquisition, Technology, and Logistics                        28 

       Department of the Army                                               30 

       Department of the Navy                                               33 

       Department of the Air Force                                          40 

Introduction
Objective
The audit objective was to determine whether DoD properly awarded single-bid
competitive contracts. Specifically, we determined whether DoD followed applicable
guidance when awarding competitive contracts after receiving a single offer. See
Appendix A for a discussion of the scope and methodology and prior coverage related to
the objective.

Background on Single-Bid Contracts
The Office of Management and Budget identified instances where DoD awarded
competitive contracts when only a single bid was received as high risk. According to the
Office of Federal Procurement Policy, competitions that receive only one bid in response
to a solicitation deprive agencies of the ability to compare alternatives and determine a
fair and reasonable price. In this regard, the Office of the Under Secretary of Defense for
Acquisition, Technology, and Logistics (OUSD [AT&L]) also defined instances where
DoD awarded contracts using competitive procedures where only a single bid was
received, as ineffective competition.

Single-Bid Guidance
The Federal Acquisition Regulation (FAR) 15.403-1(c)(ii), “Prohibition on obtaining
certified cost or pricing data,” March 2005, states that a contracting officer may
determine that adequate price competition existed when one bid was received to a
competitive solicitation if there was reasonable expectation that two or more contractors
would submit offers. Therefore, it was common practice within DoD to conclude that a
bid submitted by a single contractor in response to full and open competition met the
standard for adequate price competition because the contracting officer expected that two
or more contractors would submit offers. DoD initiated action in September 2010 to
scrutinize contracts awarded using competitive procedures where only a single bid was
received.

OUSD (AT&L) issued several memorandums providing single-bid guidance.1 As one of
the goals in the single-bid guidance, OUSD (AT&L) required the Services’ Competition
Advocates to develop a plan to improve effective competition by 10 percent per year by
removing obstacles to competitive bidding. The Services’ Competition Advocates are the
Deputy Assistant Secretary of the Army for Procurement, Office of the Assistant


1
 The OUSD (AT&L) single-bid guidance includes the following memoranda: “Better Buying Power: 

Guidance for Obtaining Greater Efficiency and Productivity in Defense Spending,” September 14, 2010;


“Implementation Directive for Better Buying Power-Obtaining Greater Efficiency and Productivity in


Defense Spending,” November 3, 2010; “Improving Competition in Defense Procurements,” 

November 24, 2010; and, “Improving Competition in Defense Procurement-Amplifying Guidance,” 

April 27, 2011. 




                                                   1


Secretary of the Army (Acquisition, Logistics, and Technology); the Deputy Assistant
Secretary of the Navy, Acquisition and Procurement, Office of the Assistant Secretary of
the Navy (Research, Development, and Acquisition); and the Deputy Assistant Secretary
for Contracting, Office of the Assistant Secretary of the Air Force for Acquisition. The
Services’ Competition Advocates are responsible for promoting the acquisition of
commercial items, promoting full and open competition, and challenging barriers to
competition.

OUSD (AT&L) required that the Secretaries of the Military Departments conduct a
review by January 31, 2011, of knowledge-based services contracts to determine the
length of time the contracts were in effect before re-competition occurred.
OUSD (AT&L) stated that the period of performance for single-bid knowledge-based
services contracts should be limited to 3 years and required that each Secretary of the
Military Departments develop a plan by March 1, 2011, to bring into compliance the
3-year period of performance limitation for knowledge-based services contracts.

OUSD (AT&L) required the following before issuing single-bid competitive contracts:

   		 When a solicitation is open for less than 30 days and only a single bid is received,
       the contracting officer should cancel and re-advertise the solicitation for a
       minimum of 30 additional days unless a waiver is obtained from the head of the
       contracting activity.
   		 When a solicitation is open for at least 30 days or has been re-advertised and only
       a single bid is received, the contracting officer should conduct negotiations with
       the offeror, unless a waiver is obtained by the head of the contracting activity.
   		 Negotiations should be based on certified cost or pricing data or data other than
       certified cost and pricing data. The contracting officer must document the
       negotiation in the business clearance/pricing negotiation memorandum.

OUSD (AT&L) clarified that:

    		 the single-bid guidance is applicable to all competitive procurements of supplies
        and services above the $150,000 simplified acquisition threshold, including
        commercial items and construction;
    		 the single-bid guidance does not apply to procurements in support of contingency
        operations, humanitarian assistance, disaster relief, peacekeeping operations, or
        recovery from nuclear, biological, chemical, or radiological attacks against the
        United States; and,
    		 contracting officers should use price or cost analysis in determining the contract
        price to be fair and reasonable rather than depending on the standard at
        FAR 15.403-1(c)(ii).

Tracking DoD Competition
Defense Procurement and Acquisition Policy (DPAP), OUSD (AT&L) established and
monitored the improvements in achieving effective competition rates that were required
by the single-bid guidance. DPAP defined effective competition as a market condition


                                             2


that exists when more than one offer is received in response to a solicitation issued under
full and open competitive procedures for:

        contracts and purchase orders;
        Simplified Acquisition Procedure Blanket Purchase Orders;
        delivery or task orders issued under multiple award schedules, Government-wide
         acquisition contracts, and indefinite delivery/indefinite quantity (ID/IQ) contracts;
        Blanket Purchase Agreements under Schedules; and
        single award ID/IQ contracts and the resulting delivery or task orders.

DPAP developed the DoD Effective Competition Report in the Federal Procurement Data
System-Next Generation (FPDS-NG)2 to identify all contract actions that resulted from
competitive procedures where only a single bid was received. The DoD Effective
Competition Report included actions resulting from Broad Agency Agreements (BAA),
Small Business Innovation Research (SBIR), and Small Business Technology Transfers
(STTR) contracts. DPAP developed a DoD FY 2010 baseline for Service efforts in
achieving effective competition and used the baseline to establish FY 2011 effective
competition goals for the Services. Table 1 depicts the baselines, goals, and achieved
effective competition rates for the Services.

          Table 1. Service Competition Baseline Rates, Goals, and Achievements
     Service       FY 2010 Baseline          FY 2011 Goal           FY 2011
                                                                    Achieved
    Army                 78.2                    86.0                 80.0
    Navy                 77.3                    85.1                 77.7
    Air Force            70.5                    77.5                 85.0

Universe and Sample of FY 2011 Single-Bid Obligations
As of December 12, 2011, FPDS-NG included 17,525 contract actions, valued at over
$24 billion, that the Services awarded between November 24, 2010 and
September 30, 2011, under reportedly competitive circumstances in which a single offer
was received. We reviewed a nonstatistical sample of contract actions that included
107 contracts, valued at almost $1.4 billion; 47 contract modifications, valued at
approximately $461.3 million; and 83 BAA and SBIR contracts, valued at $96.3 million.




2
  FPDS-NG is a comprehensive computer-based tool established by the Office of Federal Procurement
Policy that collects, develops, and disseminates procurement data to Congress, the Executive Branch, and
the private sector.



                                                    3


Internal Control Weaknesses Within the DoD
Single-Bid Program
DoD Instruction 5010.40, “Managers’ Internal Control Program Procedures,”
July 29, 2010, requires DoD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance that programs are operating as
intended and to evaluate the effectiveness of the controls. We identified internal control
weaknesses in the implementation of single-bid guidance issued by OUSD (AT&L).
Specifically, the Services’ Competition Advocates did not adequately monitor their
commands’ implementation of the single-bid guidance to verify that contracting offices
were properly following the single-bid guidance. The Services’ Competition Advocates
also did not establish an adequate review process to verify the accuracy of the contracting
officers’ input of single-bid competitive contracts information in FPDS-NG.
Additionally, DPAP did not provide effective oversight of the implementation of the
Services’ plans to increase competition and incorporate the single-bid guidance
requirements in policy before its expiration. We will provide a copy of the report to the
senior official responsible for internal controls in OUSD (AT&L) and the Services.




                                             4


Finding. Implementation of the DoD
Single-Bid Guidance Needs Improvement
The Services did not follow DoD single-bid guidance when awarding 31 contracts,
valued at approximately $656.1 million, out of the sample of 783 contracts awarded as
competitive, valued at approximately $1 billion, that we reviewed. This occurred
because the Services’ Competition Advocates did not adequately monitor their
commands’ implementation of the single-bid guidance to verify the contracting offices
were properly following the single-bid guidance.

Additionally, the Services’ plans for increasing competition were not adequate because:

       the Competition Advocates did not develop specific steps to improve competition
        rates in their plans;
       the Competition Advocates did not develop specific steps to prevent 39 of
        47 contract modifications, valued at $390.9 million, from exceeding the 3-year
        limitation on awarding contract modifications without first re-competing; and
       DPAP did not provide effective oversight of the Services’ implementation of the
        plans.

DPAP allowed the single-bid guidance to expire. This occurred because DPAP did not
incorporate the single-bid guidance requirements in policy within 180 days of issuance.
In this regard, DPAP did not timely initiate action to include the single-bid guidance in
the Defense Federal Acquisition Regulation Supplement (DFARS). DPAP also did not
classify the 83 BAA and SBIR contracts reviewed, valued at $96.3 million, as having
effective competition. This occurred because DPAP did not identify BAA, SBIR, and
STTR contracts as having effective competition in the DoD Effective Competition
Report.

In addition, the Services improperly coded 29 of 107 contracts initially selected for
review as single-bid competitive contracts in FPDS-NG because the Services’
Competition Advocates did not establish an adequate review process to verify the
accuracy of the contracting officers’ input of single-bid competitive contracts information
into FPDS-NG.

As a result, the Services have not realized potential cost savings associated with increased
competition at initial contract award and with re-competing 39 contract modifications,
valued at $390.9 million. Furthermore, the Services and OUSD (AT&L) cannot
accurately determine the percentage of improvement in Service competition rates
achieved in FY 2011.


3
 Of the 107 contracts we reviewed, 29 were improperly coded. Therefore, we could only apply the single-
bid guidance to 78 of the contracts.



                                                   5


Implementation of Single-Bid Guidance Could
Be Improved
The Services did not follow DoD single-bid guidance when awarding 31 contracts,
valued at approximately $656.1 million, out of the sample of 78 contracts awarded as
competitive, valued at approximately $1 billion, that we reviewed. Specifically,
contracting offices:

       issued 16 of 31 single-bid contracts, valued at $165.3 million, without advertising
        solicitations for 30 days;
       issued 8 of 31 single-bid contracts, valued at $471.0 million, without adequately
        determining price reasonableness; and
       issued 7 of 31 single-bid contracts, valued at $19.8 million, without advertising
        solicitations for 30 days and adequately determining price reasonableness.

This occurred because the Services’ Competition Advocates did not adequately monitor
their commands’ implementation of the single-bid guidance to verify that contracting
offices were properly following the single-bid guidance. Table 2 illustrates the
31 instances where the Services did not follow applicable single-bid guidance. See
Appendix B. for a breakout of all 78 sample contracts by Service.

        Table 2. Improper Implementation of Single-Bid Guidance by Service
 Service         30 Day Rule      Price Reasonableness           Both
           Number        Value    Number       Value     Number       Value
                       (millions)            (millions)             (millions)
 Army           9        $150.0      8        $471.0        7         $19.8
 Navy           4            2.1     0              0       0              0
 Air            3          13.3      0              0       0              0
 Force
  Total        16       $165.3*      8        $471.0        7         $19.8
*Column does not sum because of rounding.

The Services Did Not Always Advertise Solicitations for 30 Days
The Services’ contracting offices issued 16 of the 31 single-bid contracts, valued at
$165.3 million, without advertising solicitations for 30 days. OUSD (AT&L) guidance
required contracting officers to advertise solicitations for at least 30 days to facilitate the
receipt of multiple offers. However, the Services did not always follow this guidance.
For example, the United States Army Medical Research and Materiel Command
(USAMRMC) advertised a solicitation for a commercial DNA sequencer from
March 1, 2011, through March 8, 2011, a total of 7 days. USAMRMC received only one
offer. Instead of re-soliciting the solicitation for an additional 30 days as the single-bid
guidance required, USAMRMC awarded the contract to the single offeror on
March 22, 2011. The contracting officials stated that they did not believe the
November 24, 2010, OUSD (AT&L) memorandum applied to commercial items. The


                                               6


OUSD (AT&L) guidance did not specifically exclude commercial items and DPAP
intended for the single-bid guidance to apply to acquisitions of commercial items.
Posting a solicitation for less than 30 days hinders competition because contractors may
not have sufficient time to prepare and provide a well-developed proposal.

Determination of Price Reasonableness Needs Improvement
The Army awarded 8 of the 31 single-bid contracts, valued at $471.0 million, without
adequately determining price reasonableness. OUSD (AT&L) guidance required the
contracting officers to use price or cost analysis to make a determination of price
reasonableness rather than depend on the expectation of competition as stated in
FAR 15.403-1(c)(ii). However, the Army did not always adhere to this guidance. For
example, the Army Contracting Command-Aberdeen Proving Ground (ACC-APG)
issued four task orders, between March and August 2011, to a single-bid competitive
contract they awarded in 2003 for the Common Hardware/Software System. ACC-APG
did not conduct price reasonableness determinations for the orders. Instead, the
contracting officer relied on the price determination made in 2003 when ACC-APG
awarded the base contract. According to a DPAP official, OUSD (AT&L) intended that
the single-bid guidance apply to task/delivery orders, regardless of the date when the
contract was awarded.

Contracts Without Proper Solicitations and Price
Reasonableness Determinations
In the remaining 7 of 31 instances, the Army awarded single-bid competitive contracts,
valued at $19.8 million, without advertising solicitations for at least 30 days and
adequately determining price reasonableness. For example, ACC-APG solicited a
requirement for tactical radios on May 27, 2011. ACC-APG closed the solicitation
10 days later, after receiving only one offer. The contracting office also did not perform
a price reasonableness determination. Without making an adequate price reasonableness
determination, the contracting office may not have received the best price for the Army.

Better Oversight of Single-Bid Guidance Implementation Needed
The Services’ Competition Advocates did not adequately monitor their commands’
implementation of the single-bid guidance to verify that contracting officers were
properly following the single-bid guidance. DPAP required that all contracting officers
follow the single-bid guidance. To confirm that contracting officers were adhering to
procurement policy, the Competition Advocates are responsible for reviewing the
contracting operations of their agency. Within the Navy, the Competition Advocate used
their formal, internal Procurement Performance Management Assessment Program
reviews to confirm that Navy contracting officer’s properly implemented the single-bid
guidance. Even with the Competition Advocate oversight, we noted that the Navy
contracting officers did not advertise 4 of 25 solicitations in our sample for at least
30 days.

Competition Advocates within the Army and Air Force did not establish a formal process
to confirm that their contracting officer’s were advertising solicitations for at least
30 days and sufficiently determining price reasonableness. Of the 31 instances of


                                            7


inadequate implementation of the single-bid guidance, 24 occurred within the Army and
3 occurred within the Air Force. The Services’ Competition Advocates should develop
plans and procedures to adequately monitor their commands’ implementation of the
single-bid guidance and require contracting offices to implement the single-bid guidance.

Competition Reports Lacked Specific Detail
The Services’ competition plans were not adequate because the Services’ Competition
Advocates did not include specific steps to improve competition rates in their competition
plans and DPAP did not adequately review the content of the Services’ competition
plans. DPAP issued, “Competition Report for FY 2010,” December 16, 2010, to provide
implementing guidance for drafting the competition plans and to require each
Competition Advocate to provide their FY 2010 competition report to DPAP by
January 21, 2011. DPAP required the Services to include historical data in their
competition reports, as well as, goals and plans for increasing competition on a fiscal year
basis.

In response, the Services’ Competition Advocates prepared FY 2010 competition reports
but did not include specific goals and plans for increasing competition. For example, the
Navy FY 2010 Competition Report outlined FY 2010 achievements and barriers to
                                       competition and identified a FY 2011 competition
     However, the report did not       goal of increasing the competition rate by two
    identify specific, measurable      percent over the competition rate achieved during
   steps Navy components should        FY 2010. However, the report did not identify
     take to accomplish the goal.      specific, measurable steps Navy components
                                       should take to accomplish the goal. Specific,
measurable steps would enable the Navy Competition Advocate to hold contracting
offices within the Navy accountable for actions that could increase competition. The
Services’ Competition Advocates should develop specific goals and plans to increase
competition and include metrics to track improvements in their competition plans.

DPAP manages the single-bid program and receives the Services’ competition reports.
Although, the December 16, 2010, DPAP memorandum required the Services’
Competition Advocates include plans for attaining future years’ competitive contract
award goals, a DPAP representative acknowledged that the competition reports only
presented a historical look at competition. DPAP could better manage the Services’
ability to reach their competitive contract award goals if the competition reports included
measurable goals and plans to achieve improved competitive contract award rates. DPAP
should review the Services’ competition reports to verify that they include specific goals
and plans for increasing competition.

Management Actions for the Development of Goals and
Plans to Increase Competitive Contract Awards
In May 2012, the Air Force Competition Advocate provided us with the “Air Force
Competition Report Fiscal Year 2011,” January 2012, indicating that the competition
report addressed goals and plans to increase competitive procurements. The competition
report outlined contracting office practices used to achieve effective competition.


                                             8


Specifically, the competition report indicated that the Air Force continued to pursue
competition by engaging Competition Advocates early in the acquisition process and
used available resources to ensure the widest dissemination of contract opportunities.
Additionally, the report indicated that the Air Force awarded multiple-award ID/IQ
contracts where appropriate, emphasized robust market research, challenged overly
restrictive requirements, and used industry days to convey program needs and increase
industry participation. The report identified that the Air Force achieved a FY 2011
effective competition rate of 85 percent and DPAP assigned a FY 2012 effective
competition goal of 93.5 percent. According to an Air Force representative, the
Air Force achieved an effective competition goal of 88.5 percent by the end of the second
quarter of FY 2012. If the Air Force removes the award of contract modifications, the
effective competition goal achieved increases to 97 percent. Therefore, we did not make
a recommendation for the Air Force Competition Advocate to develop specific goals and
plans to increase competition and include metrics to track improvements in their
competition plans.

Single-Bid Contract Modifications Exceeded
3-Year Limitation
The Services’ plans related to the 3-year limitation of contract modifications were not
adequate to prevent 394 of 47 contract modifications, valued at $390.9 million, from
                                      being awarded after the 3-year limitation after
    The Services’ plans…were not      contract award without re-competing the
      adequate to prevent 39 of       requirement. This occurred because the Services
      47 contract modifications,      did not develop specific goals and plans to reduce
    valued at $390.9 million, from    the number of contract modifications awarded that
   being awarded after the 3-year     exceeded the 3-year award limitation and DPAP did
             limitation...            not effectively monitor the Services’ reviews and
                                      plans related to enforcing the 3-year award
limitation of making contract modifications to single-bid competitive knowledge-based
services contracts. OUSD (AT&L) required the Secretaries of the Military Departments
to review knowledge-based services contracts to determine the length of the contract
performance period before the contract requirements were re-competed and develop a
plan to bring into compliance the 3-year performance limitation for knowledge-based
services contracts. OUSD (AT&L) stated that the period of performance for single-bid
knowledge-based services contracts should be limited to 3 years. The Services’
Competition Advocates should have conducted a review and developed a plan relating to
the 3-year limitation on making contract modifications awarded on single-bid competitive
knowledge-based services contracts.




4
 The Services’ awarded 8 of 47 contract modifications after November 24, 2010, that had not reached the
3-year limitation after contract award.



                                                   9


Table 3 illustrates the results of our review of single-bid knowledge-based services
contract modifications by Service.

    Table 3. Knowledge-based Services Contract Modifications Exceeding 3 Years
   Service     Modifications      Value        Modifications         Value
                 Reviewed       (millions)   Exceeding 3 Years     (millions)
 Army               17            $280.6             14              $255.9
 Navy               20             128.4             18               112.0
 Air Force          10              52.3              7                22.9
  Total             47            $461.3             39              $390.9*
*Column does not sum because of rounding.

The Deputy Assistant Secretary of the Navy (Acquisition and Procurement)
(DASN [AP]) initiated a review of the length of contract performance periods in the
Navy and developed a plan related to the 3-year period of performance limitation in
awarding knowledge-based services contract modifications, as required by the
OUSD (AT&L). The Navy’s review resulted in the DASN (AP) issuing, “Enhancing
Competition for Services Contracts,” December 21, 2011. The DASN (AP) issuance
established an optimum recommended period of performance of 3 years for all new Navy
knowledge-based services contracts and 5 years for all other service contracts. However,
the Navy issuance did not address existing contracts. According to a Navy
representative, the Navy is allowing knowledge-based services contracts to expire under
their own timeline because Navy does not have the contracting workforce to re-award the
contracts. Of the 20 Navy knowledge-based services contract modifications we
                                         reviewed, Navy issued 18 contract modifications
   Of the 20 Navy knowledge-based        at least 3 years after they awarded the single-bid
            services contract            competitive contracts. Of these 18 knowledge-
   modifications…10 modifications        based services contract modifications,
      were over 6 years from base        10 modifications were over 6 years from base
             contract award.             contract award. The Navy could have potentially
realized cost savings associated with re-competing the 18 contracts. The Navy
Competition Advocate should identify existing single-bid competitive knowledge-based
services contracts with planned future modifications that would exceed the 3-year
limitation for modification award and establish a plan to re-compete those contracts for
potential competition cost savings.

The Army and Air Force Competition Advocates did not conduct a review or develop a
plan to review the length of the performance period of their knowledge-based services
contracts. Of the 27 Army and Air Force knowledge-based service contract
modifications we reviewed, Army issued 14 and Air Force issued 7 contract
modifications that were awarded at least 3 years after they awarded the single-bid
competitive contracts. The Army and Air Force could have potentially realized cost
savings associated with re-competing the 21 contracts. As with the Navy, the Army and
Air Force Competition Advocates should conduct a review to identify single-bid


                                            10


competitive knowledge-based services contracts where future planned modifications
would exceed the 3-year limitation for modification award and establish a plan to re-
compete those contracts for potential competition cost savings.

DPAP did not monitor the Services’ reviews and plans related to the 3-year limitation of
making contract modifications after contract award for single-bid competitive contracts.
On November 3, 2010, OUSD (AT&L) required the Secretaries of the Military
Departments provide a plan by March 1, 2011, related to the period of performance for
contract modifications made for single-bid knowledge-based services competitive
contracts. DPAP did not follow up with the Services to confirm that the Services
conducted adequate reviews and developed a plan to reduce the percentage of contract
modifications that exceeded the 3-year limitation for modification award. DPAP should
direct the Services’ Competition Advocates to conduct adequate modification reviews and
develop plans to verify that contracting officers re-compete planned modifications that
exceed the 3-year limitation for modification award after base contract award for single-
bid competitive knowledge-based services contracts.

Single-Bid Guidance Expired
DPAP allowed the single-bid guidance to expire before incorporating the single-bid
guidance requirements in DoD policy. The DoD Instruction 5025.01, “DoD Directives
Program,” updated on July 1, 2010, requires the Office of the Secretary of Defense
Components to incorporate all DoD memorandums into existing DoD issuances or
convert them into new DoD issuances before their 180-day expiration. OUSD (AT&L)
issued single-bid guidance memorandums between September 14, 2010, and April 27,
2011. The single-bid guidance memorandums effectively expired on October 24, 2011.

OUSD (AT&L) did include the initiative for Competition Advocates to develop a plan to
improve the rate of effective competition in the “DoD FY 2011 Strategic Management
Plan,” December 30, 2010. However, OUSD (AT&L) did not subsequently provide the
detailed single-bid requirements in the “DoD FY 2011 Strategic Management Plan,”
December 30, 2010. Specifically, the DoD FY 2011 Strategic Management Plan did not
include the single-bid requirements to advertise solicitations for at least 30 days and use
price or cost analysis to make fair and reasonable price determinations.

Management Actions to Include Single-Bid Guidance in
the Defense Federal Acquisition Regulation Supplement
On July 25, 2011, OUSD (AT&L) proposed an amendment to the DFARS to address
acquisitions using competitive procedures in which only one offer is received. The
amendment will incorporate the single-bid guidance in the DFARS. DoD issued the
single-bid update to the DFARS on June 29, 2012. Therefore, we did not make a
recommendation for DPAP to revise DoD procurement policy to incorporate the detailed
requirements in the single-bid guidance.




                                            11


Selected Research Contract Actions That Should Be
Classified as Having Effective Competition
DPAP did not classify the 83 BAA and SBIR contracts, valued at $96.3 million, as
having effective competition. DPAP, in the design of the DoD Effective Competition
Report, did not identify BAA, SBIR, and STTR5 contracts as resulting from having
effective competition. BAA, SBIR, and STTR contracts represent a different type of
competition than for standard procurements. The BAA is a competitive solicitation that
requests research ideas for a general area. The BAAs are continuously open, normally
for at least 1 year, and proposals are evaluated throughout the year when received. An
agency will award contracts against the BAA based on the technical feasibility of the
proposal and fund availability. The SBIR and STTR programs are intended to increase
technological innovation. The SBIR and STTR programs are structured in three phases6
where offerors cannot progress into the next phase until successfully completing the first
phase. An agency will award contracts against the SBIR and STTR solicitations based on
the technical feasibility and commercial potential of the proposed research efforts.
Further, contracting officers commonly code the BAA, SBIR, and STTR contracts as
competitive single-bids in FPDS-NG. Table 4 illustrates the number of BAA and SBIR
contracts per Service.

                           Table 4. BAA and SBIR Contracts by Service
      Service               Total          Value        Reviewed                                  Value
                                         (millions)                                             (millions)
    Army                     506           $331.9           26                                    $30.6
    Navy                     401            391.3           13                                     11.9
    Air Force                668            373.5           44                                     53.8
     Total                 1,575         $1,096.7           83                                    $96.3

For the DoD Effective Competition Report in FPDS-NG, DPAP identified all instances
where one bid to a solicitation was received as not having effective competition. The
DoD Effective Competition Report included BAA, SBIR, and STTR contract actions as
having ineffective competition because the contracting officers coded them as receiving a
single bid, even though the solicitations receive multiple bids. A DPAP representative
stated that SBIR and STTR contract actions are specifically identified in FPDS-NG and
could be reclassified as having effective competition. Additionally, the DPAP
representative stated that it might be possible to identify BAA contract actions in


5
  The overall single-bid contract actions the Services issued included BAA, SBIR, and STTR contracts.
Our above sample only included BAA and SBIR contracts. However, the STTR and SBIR programs are
structured the same and represent the same type of competitive environment. Therefore, our review results
are applicable to STTR contracts, as well as, BAA and SBIR contracts.
6
  Phase I is to establish the technical merit, feasibility, and commercial potential of the proposed research
effort. Phase II is to continue the research efforts initiated in Phase I. Phase III is for the small business to
pursue commercialization objectives resulting from the Phase I and II research activities.



                                                       12


FPDS-NG. Furthermore, DPAP representatives stated that the intent of the single-bid
guidance was to address routine procurement actions, not BAAs, SBIRs, or STTRs.
Excluding BAA, SBIR, and STTR contracts from statistics for contracts as having
ineffective competition would assist DPAP and the Services in accurately assessing their
competition rates. Therefore, DPAP should modify the DoD Effective Competition
Report to exclude BAA, SBIR, and STTR contracts from being assessed in statistics as
having ineffective competition.

Improving the Coding of Single-Bid
Competitive Contracts
The Services’ contracting officers incorrectly coded 29 of 107 contracts initially selected
for review as single-bid competitive contracts in FPDS-NG because the Services’
Competition Advocates did not establish an adequate review process to verify the
accuracy of the contracting officers’ input of single-bid competitive contracts information
into FPDS-NG. Table 5 illustrates the number of miscoded contracts by Service.

                         Table 5. Miscoded Contracts by Service
    Service           Total            Value          Contracts                Value
                     Contracts       (millions)       Miscoded               (millions)
                     Reviewed
 Army                   51             $786.9            15                    $116.7
 Navy                   32              422.9              7                    163.7
 Air Force              24              152.1              7                     79.6
  Total                107           $1,361.9             29                   $360.0

The Services’ contracting officers incorrectly coded 19 of 29 contracts as single-bid
competitive contracts when the contracts received multiple bids. The Services solicited
the request for proposals on contracts under full and open competition procedures. The
Services received multiple bids for each solicitation; however, the Services’ contracting
officers coded the contracts as single-bid competitive contracts in FPDS-NG. For
example, the Naval Facilities Engineering Command (NAVFAC) issued request for
proposal N69450-10-R-1760 on April 1, 2011, and closed it on May 19, 2011. NAVFAC
received four bids to the solicitation and awarded contract N69450-11-C-1760 on
September 7, 2011. In error, the NAVFAC contracting officer coded the contract as a
single-bid competitive contract in FPDS-NG.

Additionally, the Services’ contracting officers incorrectly coded 8 of 29 contracts as
single-bid competitive contracts for contracts that were solicited under other than full and
open competition procedures. FAR section 6.302, “Circumstances permitting other than
full and open competition,” March 2005, lists seven circumstances that permit other than
full and open competition. For example, the Naval Air Systems Command awarded
N0019-11-C0300 after determining that only one responsible source was available to
satisfy agency requirements. However, the contracting office incorrectly coded the
contract as a single-bid competitive contract in FPDS-NG rather than coding it as limited


                                            13


competition. In the two remaining instances, the Navy and Air Force incorrectly coded
orders as single-bid competitive actions when the orders were never issued.

The Services’ Competition Advocates did not adequately review the contracting officers’
input of single-bid competitive contracts information into FPDS-NG. Accurate coding of
single-bid competitive contracts would enable the Services’ Competition Advocates to
accurately assess improvements in their Commands’ competition rate. The Services’
Competition Advocates should develop procedures to monitor their contracting officers’
input of single-bid competitive contract information into FPDS-NG.

Management Actions Related to the Accuracy of Single-
Bid Competitive Contract Data in FPDS-NG
In May 2012, the Air Force Competition Advocate provided us with the “Air Force
Competition Report Fiscal Year 2011,” dated January 2012, indicating that the
competition report addressed the coding of single-bid competitive contracts in FPDS-NG.
Specifically, the competition report indicated that all Air Force contracting personnel
were required to attend FPDS-NG coding training to ensure FPDS-NG data were entered
correctly. Establishing mandatory FPDS-NG training should help to reduce coding errors
within FPDS-NG; however, the Air Force Competition Advocate should develop
procedures to monitor the contracting officers’ input of single-bid competitive contract
information into FPDS-NG.

Conclusion
The Services have not realized potential cost savings associated with increased
competition at initial contract award and with re-competing 39 contract modifications,
valued at $390.9 million. The Services can increase competition by re-competing single-
bid contracts that exceed the 3-year limitation on awarding contract modifications after
base contract award.

Furthermore, the Services and the OUSD (AT&L) cannot accurately measure
improvements in Service competition rates for FY 2011. The OUSD (AT&L) reported
that the Army, Navy, and Air Force achieved FY 2011 effective competition rates of
80 percent, 77.7 percent, and 85 percent, respectively. The effective competition rates do
not accurately represent the level of competition achieved by the Services because the
rates included contracts improperly coded as single-bid and did not recognize BAA,
SBIR, or STTR contracts as having effective competition. Without an accurate
representation of the level of competition achieved by the Services, the Services and the
OUSD (AT&L) do not know their actual effective competition rates realized and the
OUSD (AT&L) cannot set realistic improvement goals for effective competition.




                                           14


Management Comments on the Finding and
Our Response
Management Comments on Effective Competition Goal
The DASN (AP) stated that a sentence in the background read, “As one of the goals in
the single-bid guidance, OUSD (AT&L) required the Services’ Competition Advocates
develop a plan to improve effective competition by 10 percent per year by reducing funds
obligated to single-bid contracts.” He stated that while the desired outcome from
improvements in effective competition would yield a lower percentage of funds obligated
to single-bid contracts over time, the OUSD (AT&L) guidance preferred achieving
improvements in effective competition through removing obstacles to competitive
bidding in solicitation. Therefore, DASN (AP) suggested that the sentence be revised to
read, “As one of the goals in the single-bid guidance, OUSD (AT&L) required the
Services’ Competition Advocates to develop a plan to improve effective competition by
10 percent per year by removing obstacles to competitive bidding.”

Our Response
As a result of the DASN (AP) comments, we revised the sentence in the final report.

Management Comments on 3-Year Limitation
DASN (AP) stated that the draft report stated, “OUSD (AT&L) stated that the period of
performance for single-bid, knowledge-based services contracts should be limited to
3 years,” while the guidance stated that the “period of performance for single-award
knowledge-based services contracts should normally be limited to 3 years, including
options.” He also stated the general 3-year period of performance applied to the entire
population of knowledge-based services contracts rather than just those competitive
solicitations where a single bid was received.

Additionally, DASN (AP) stated that OUSD (AT&L) clarified that its guidance was not
intended as a mandatory limitation on contract length, instead leaving this decision
regarding applicability of the 3-year general rule to the Senior Services Managers. He
stated that there were other instances in the draft report where OUSD (AT&L) guidance
said “single-award” and was replaced with “single-bid.”

Our Response
While the DASN (AP) stated that the terms single-award and single-bid have different
meanings, a DPAP representative confirmed that in this instance, single-award actions
and one-bid proposals were considered to be the same. Additionally, although the
Department of the Navy Senior Services Manager decided to allow existing services
contracts to run to completion, the Navy may achieve additional cost savings by
re-competing existing single-bid, competitive, knowledge-based services contracts
exceeding 3 years. Therefore, we made no revisions to the final report.




                                           15


Management Comments on the Single-Bid Guidance Expiration
The Director, DPAP stated that the draft report references DoD Instruction 5025.01,
“DoD Directives Program,” as it applies to DoD issuances that were defined as
DoD Directives, DoD Instructions, DoD Manuals, DoD Publications, DoD Directive-
Type Memorandums, and Administrative Instructions. He also stated that
DoD Instruction 5025.01 provided policy for the DoD Directives Program, including that
Directive-Type Memorandums are to be effective for no more than 180 days from the
date signed. He stated that the OUSD (AT&L) memoranda providing single-bid
guidance did not meet the definitions for Directive-Type Memorandums as they did not
provide changes to DoD issuances. Further, the Director asserted that the revised policy
pertained to the FAR system and was separate from the DoD Directives program.
Therefore, he concluded that the single-bid memoranda were not subject to the 180-day
expiration requirement.

Our Response
The single-bid guidance did meet the definition of Directive-Type Memorandum. A
Directive-Type Memorandum is issued for time-sensitive actions that affect current
issuances or that will become DoD issuances. Time-sensitive actions are those that are
directed by the Secretary or Deputy Secretary of Defense.

The single-bid guidance originated from an efficiency initiative led by the Secretary and
Deputy Secretary of Defense discussed in the OUSD (AT&L) memorandum, “Better
Buying Power: Mandate for Restoring Affordability and Productivity in Defense
Spending,” June 28, 2010. The initiative required DoD to conduct activities more
efficiently, such as leveraging real competition by avoiding substitutes for real
competition.

Additionally, many of the requirements identified in the single-bid guidance were
effective immediately. DPAP could have incorporated the single-bid guidance into a
DoD issuance, but eventually chose to update DFARS. On June 29, 2012, DoD updated
DFARS to address acquisitions using competitive procedures in which only one offer is
received.

Recommendations, Management Comments, and
Our Response
1. We recommend that the Director, Defense Procurement and Acquisition Policy,
Office of the Under Secretary of Defense (Acquisition, Technology, and Logistics):

        a. Review the Services’ competition reports to verify that they include
specific goals and plans for increasing competition.

Director, Defense Procurement and Acquisition Policy
Comments
The Director, DPAP agreed and stated that DPAP reviewed the Military Departments’
competition reports to ensure specific goals were included in the reports for the upcoming


                                            16


fiscal year and that the Services established plans to improve overall and effective
competition goals. In addition, he stated that DPAP conducted quarterly Competition
Advocate meetings to review progress against the goals and identified shortfalls,
understood opportunities for improvement, and promoted initiatives that reduced barriers
to competition.

      b. Direct the Services’ Competition Advocates to conduct adequate
modification reviews and develop plans to verify that contracting officers re-
compete planned modifications that exceed the 3-year limitation for modification
award for single-bid competitive knowledge-based services contracts.

Director, Defense Procurement and Acquisition Policy
Comments
The Director, DPAP agreed and stated that the Under Secretary of Defense for
Acquisition, Technology, and Logistics would provide guidance to the Military
Departments to conduct reviews of single-award, knowledge-based services contracts that
exceed the recommended 3-year limitation, including options, and develop plans for
more frequent re-competes as appropriate. He stated that the methodology for
conducting the reviews and preparing the plans would be left to the Senior Service
Managers. Furthermore, the Director indicated that he would receive copies of the plans.

Our Response
Comments from the Director, DPAP for Recommendations 1.a. and 1.b. were responsive,
and no further comments were required.

      c. Modify the DoD Effective Competition Report to exclude Broad Agency
Agreements, Small Business Innovation Research, and Small Business Technology
Transfers contracts from being assessed as having ineffective competition.

Director, Defense Procurement and Acquisition Policy
Comments
The Director, DPAP partially agreed. He stated that DPAP would exclude SBIR and
STTR contract actions from the DoD Effective Competition Report calculations because
they can be tracked in the FPDS-NG. In addition, he stated that DPAP could not exclude
BAA contract actions from the effective competition calculations because BAA
designations for contract actions were not collected centrally.

Our Response
Comments from the Director, DPAP were partially responsive. The Director agreed to
exclude SBIR and STTR contract actions from the DoD Effective Competition Report,
but could not exclude BAA contract actions because they were not collected centrally.
However, we identified BAA contracts by meeting with Army, Navy, and Air Force
contracting officials and obtaining contract file documentation. DPAP could coordinate
with the Services during the quarterly Competition Advocate meetings to identify and
exclude BAA contract actions. BAA contracts represent a different type of competition


                                           17


than standard procurements and should be excluded from the DoD Effective Competition
Report. Therefore, we request that the Director reconsider his position on the
recommendation and provide additional comments on the final report.

2. We recommend that the Deputy Assistant Secretary of the Army for
Procurement, Office of the Assistant Secretary of the Army (Acquisition, Logistics,
and Technology):

      a. Develop plans and procedures to adequately monitor the Department of
the Army commands’ implementation of the single-bid guidance and require that
Army contracting offices implement the single-bid guidance.

Deputy Assistant Secretary of the Army (Procurement)
Comments
The Deputy Assistant Secretary of the Army (Procurement) (DASA [(P]) agreed and
stated that on June 29, 2012, the Defense Acquisition Regulations Council issued a final
rule amending DFARS to address acquisitions using competitive procedures in which
only one offer was received. DASA (P) issued a Principal Assistant Responsible for
Contracting Alert on July 16, 2012, to address the guidance for soliciting and awarding
single-offer contracts. He stated that he would also issue a Principal Assistant
Responsible for Contracting Alert to advise the contracting community that they must
include a review of single-bid awards in their Contract Management Reviews. DASA (P)
also stated that the FY 2013 Procurement Management Review Program’s Contract
Execution Toolkit would include questions that address single-bid awards and that he
would issue guidance to the contracting community to include these questions in their
Contract Management Reviews.

       b. Develop specific goals and plans to increase competition and include
metrics to track improvements in the Department of the Army competition plan.

Deputy Assistant Secretary of the Army (Procurement)
Comments
DASA (P) agreed and stated that the Head of Contracting Activities/Principal Assistant
Responsible for Contracting Operations was working with the contracting commands to
develop a methodology for developing meaningful competition goals. He stated that the
results would be incorporated into the Army’s FY 2012 competition report. DASA (P)
also stated that he instituted quarterly Contract Enterprise Reviews to track performance
metrics, which includes tracking competition. Additionally, he stated that contracting
offices tracked effective competition by tracking single-bid procurements in order to
improve better buying power.

        c. Conduct a review to identify single-bid competitive knowledge-based
services contracts where future planned modifications would exceed the 3-year
limitation for modification award and establish a plan to re-compete those contracts
for potential competition cost savings.



                                           18


Deputy Assistant Secretary of the Army (Procurement)
Comments
DASA (P) agreed and stated that one of its initiatives was the establishment of a quarterly
Contracting Enterprise Review to track performance metrics, which included tracking
competition. In addition, he stated that a subset of the competition metric for single-offer
contracts with the options exceeding 3 years would be added in FY 2013.

        d. Develop procedures to monitor the Department of the Army contracting
officers’ input of single-bid competitive contract data into the Federal Procurement
Data System - Next Generation.

Deputy Assistant Secretary of the Army (Procurement)
Comments
DASA (P) agreed and stated that in FY 2013, DASA (P) would monitor single-offer
contracts and run monthly reports to ensure accuracy of data entered into the FPDS-NG.
He stated that results would be reported through the quarterly Contract Enterprise
Review. DASA (P) also stated that he would issue a Principal Assistant Responsible for
Contracting Alert in the first quarter of FY 2013 with instructions to correct Contracting
Action Reports for null value contracts.

Our Response
Comments from DASA (P) were responsive, and no further comments were required.

3. We recommend that the Deputy Assistant Secretary of the Navy, Acquisition and
Procurement, Office of the Assistant Secretary of the Navy (Research, Development,
and Acquisition):

      a. Develop plans and procedures to adequately monitor the Department of
the Navy commands’ implementation of the single-bid guidance and require that
Navy contracting offices implement the single-bid guidance.

Deputy Assistant Secretary of the Navy (Acquisition and
Procurement) Comments
DASN (AP) agreed and stated that the Department of the Navy issued directive
implementation for cases where competitive solicitations resulted in only one offer that
required compliance with the single-bid guidance. Additionally, he stated that the Navy
used the Procurement Performance Management Assessment Program reviews to confirm
compliance with the single-bid guidance and ensure that obstacles to competitive bidding
were removed through the Department of the Navy Peer Review Program. DASN (AP)
also stated that through the approval of the business clearance memoranda, Procurement
Performance Management Assessment Program reviews, and Peer Review Program, the
Navy had already fulfilled the recommendation to implement guidance and adequately
monitor compliance with the single-bid guidance.




                                            19


       b. Develop specific goals and plans to increase competition and include
metrics to track improvements in the Department of the Navy competition plan.

Deputy Assistant Secretary of the Navy (Acquisition and
Procurement) Comments
DASN (AP) agreed and stated that the Navy already had procedures in place for
developing specific goals and plans to increase competition. He also stated that the Navy
had established targets for overall and effective competition goals based on OUSD
(AT&L) guidance, which was measured using FPDS-NG. Additionally, DASN (AP)
stated that the Navy participated in quarterly Competition Advocate meetings with DPAP
to review and discuss progress against the overarching goals, identify any shortfalls,
understand opportunities for improvement, and promote initiatives that remove barriers to
competition. He also stated that the Competition Advocates at each activity were
responsible for plans to increase competition and for preparing an annual report of
competition achievement. The annual reports include a proposed command goal for
competition and effective competition in the coming fiscal year.

Our Response
Comments from DASN (AP) for Recommendations 3.a. and 3.b. were responsive, and no
further comments were required.

      c. Identify existing single-bid competitive knowledge-based contracts with
planned future modifications that would exceed the 3-year limitation for
modification award and establish a plan to re-compete those contracts for potential
competition cost savings.

Deputy Assistant Secretary of the Navy (Acquisition and
Procurement) Comments
DASN (AP) disagreed. He stated that the OUSD (AT&L) guidance did not include a
mandatory 3-year limitation on any contract nor did it include a 3-year limitation for
contract modifications on existing single-award, knowledge-based services contracts.
DASN (AP) stated that the Navy Senior Services Manager made a decision to allow
existing services contracts to run to completion.

Our Response
Comments from DASN (AP) were not responsive. Although the Navy Senior Services
Manager decided to allow existing services contracts to run to completion, the Navy
might achieve additional cost savings by re-competing existing single-bid, competitive,
knowledge-based services contracts exceeding 3 years. We request that DASN (AP)
reconsider his position on the recommendation and provide additional comments on the
final report.

        d. Develop procedures to monitor the Department of the Navy contracting
officers’ input of single-bid competitive contract data into the Federal Procurement
Data System - Next Generation.


                                            20


Deputy Assistant Secretary of the Navy (Acquisition and
Procurement) Comments
DASN (AP) agreed and stated that the Navy already had procedures in place to collect
and monitor the contracting officers’ input of all contract data into FPDS-NG. He also
stated that the Navy Marine Corps Acquisition Regulation Supplement required the Head
of Contracting Activities to complete a quarterly data verification and validation review
and submit the quarterly results to him. Additionally, DASN (AP) stated that by
December 1 of each year, each activity was required to submit annual certification and
data validation results for the preceding fiscal year. These annual certifications include
errors found and corrective actions taken.

Our Response
Comments from DASN (AP) were responsive, and no further comments were required.

4. We recommend that the Deputy Assistant Secretary for Contracting, Office of
the Assistant Secretary of the Air Force for Acquisition:

       a. Develop plans and procedures to adequately monitor the Department of
the Air Force commands’ implementation of the single-bid guidance and require
that Air Force contracting offices implement the single-bid guidance.

Deputy Assistant Secretary of the Air Force (Contracting)
Comments
The Deputy Assistant Secretary for Contracting (DAS [C]) agreed and stated that the
DPAP single-bid memorandum and subsequent DFARS rule were disseminated to the
Air Force contracting activities and briefed during conferences. She stated that the
Air Force would rely on existing clearance procedures outlined in the Air Force
FAR Supplement 5301-90 to verify compliance with the single-bid guidance.
Additionally, DAS (C) stated that the Air Force set the approval authority for waivers to
the single-bid guidance at the Chief of the Contracting Office level to ensure higher level
oversight. She also stated that the Air Force would include the single-bid requirements as
a special interest item on the Air Force contracting Unit Compliance Checklist, with an
estimated completion date of January 31, 2013.

DAS (C) stated that the Air Force previously identified, and provided backup
documentation to DoD IG, to demonstrate that the Air Force had only two instances
where the 30-day rule was not followed. She requested that the report reflect only two
instances. DAS (C) stated that training would be provided to the contracting workforce
at the two locations where the violations occurred to ensure future compliance.

Our Response
Comments from DAS (C) were responsive, and no further comments were required. We
reviewed the backup documentation provided by the Air Force and identified there were
still three instances where the 30-day rule was not followed.



                                            21


        b. Conduct a review to identify single-bid competitive knowledge-based
services contracts where future planned modifications would exceed the 3-year
limitation for modification award and establish a plan to re-compete those contracts
for potential competition cost savings.

Deputy Assistant Secretary of the Air Force (Contracting)
Comments
DAS (C) agreed and stated that the Better Buying Power Initiative, Improving Tradecraft
in Service Acquisitions, was assigned to the Program Executive Officer for Services, and
therefore, she provided comments on the Program Executive Officer’s behalf. She stated
that the acquisition approval authority reviewed modifications to single-bid, knowledge-
based service contracts before award to determine whether or not they should be re-
competed or limited to a 3-year period of performance. DAS (C) also stated that the
initiative did not make mandatory a 3-year limitation of single-award, knowledge-based
service contracts, only that it indicated that single award actions should normally be
limited to 3 years. Finally, she stated that the Air Force was and continued to be in
compliance with the FAR and its supplements with respect to contract periods of
performance.

Our Response
Comments from DAS (C) were responsive, and no further comments were required.

      c. Develop procedures to monitor the Department of the Air Force
contracting officers’ input of single-bid competitive contract data into the Federal
Procurement Data System - Next Generation.

Deputy Assistant Secretary of the Air Force for Contracting
Comments
DAS (C) agreed and stated that procedures were in place to monitor Air Force
contracting officer’s input of single-bid competitive contract data into the FPDS-NG.
Specifically, she stated that in 2011, she required the contracting organizations that did
not meet the Air Force effective competition goal to verify for accuracy all contract
action reports coded as ineffective and to correct any miscoded contract action reports.
Further, DAS (C) stated that quarterly data verification and validation exercises were
conducted to review, for accuracy, a representative sample of contract action reports that
included elements related to the single-bid regulations.

In addition, DAS (C) stated that she distributed the FPDS-NG effective competition
reports to the Air Force Competition Advocates quarterly and, as of FY 2012, required
contract action reports coded as ineffective to be reviewed for accuracy. She stated that
to further improve the accuracy of report coding, she would establish mandatory training
for contracting personnel responsible for completing contract action reports and would
continue to use the quarterly data verification and validation exercises and data calls to
identify and address systemic issues. DAS (C) provided an estimated completion date of
January 31, 2013.


                                            22


Additionally, DAS (C) stated that the draft report indicated the Air Force had seven
contract action report coding errors, while the discussion draft stated the Air Force had
six. She requested that we correct the report to reflect six contract action report coding
errors.

Our Response
Comments from DAS (C) were responsive, and no further comments were required. The
audit team reviewed documentation and confirmed that the Air Force had seven errors
with FPDS-NG coding.




                                             23


Appendix A. Scope and Methodology
We conducted this performance audit from August 2011 through July 2012 in accordance
with generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

To determine whether DoD properly awarded single-bid contracts, we reviewed contract
actions awarded following the issuance of single-bid competitive contract guidance on
November 24, 2010. FPDS-NG included 171,288 single-bid contract actions, valued at
$39.6 billion, for DoD during FY 2011. We removed contract actions for which the
single-bid guidance was not applicable. Specifically, we removed actions below the
$150,000 simplified acquisition threshold, actions that were identified as related to
overseas contingency operations, and actions that were awarded before
November 24, 2010. Additionally, we did not review single-bid contract actions awarded
by the Defense Logistics Agency or other defense agencies. As a result, the audit
universe consisted of 17,525 single-bid contract actions, valued at over $24.0 billion. See
Table A-1 for a summary of single-bid contract actions by Service.

                      Table A-1. Single-Bid Contract Actions by Service
      Service       Contracts    Value      Mods       Value       BAA/         Value
                               (millions)            (millions)    SBIR/      (millions)
                                                                   STTR
     Army             2,521     $4,608.1    3,030     $6,448.0      506         $331.9
     Navy*            2,924      3,095.8    4,485      5,742.9      401           391.3
     Air Force        1,022      1,053.9    1,968      1,997.2      668           373.5
       Total          6,467     $8,757.8    9,483    $14,188.1     1,575       $1,096.7

We selected a nonstatistical sample of 328 competitive, single-bid contract actions,
valued at nearly $5.4 billion, based on contracting office and dollar value. We identified
51 of the 328 contract actions, valued at $951.4 million, for which the single-bid
guidance was not applicable and removed them from our sample. Specifically, we
removed contract actions that were solicited before November 24, 2010, and awarded
after November 24, 2010; contract actions that were supported by a justification for
soliciting under other than full and open competition; and, contract actions that were for
overseas contingency operations or architect-engineer services. As a result, we reviewed
277 contract actions, valued at $4.4 billion. See Table A-2 for a summary of the sample
we reviewed.


*
    Navy values include Marine Corps single-bid contract actions.



                                                      24


                 Table A-2. Sample of Single-Bid Actions by Service
 Service      Contracts    Value     Mods         Value       BAA/               Value
                         (millions)             (millions)    SBIR             (millions)
Army             51         $786.9     27        $1,336.6       26               $30.6
Navy             32          422.9     30         1,290.1       13                11.9
Air Force        24          152.1     30          342.7        44                53.8
  Total         107       $1,361.9     87       $2,969.5*       83               $96.3
*Column does not sum because of rounding

We obtained contract information from the Electronic Data Access database and
solicitations from the Federal Business Opportunities for some of the contracts within the
sample. We requested that the Services’ contracting offices provide documentation for
the contracts within the selected nonstatistical sample. We reviewed the solicitation
documentation to determine if the contracting commands had provided for an open
competition environment for the award. Additionally, we reviewed the contract award
documentation to determine if the solicitation was open for at least 30 days and that the
Government received a fair and reasonable price. We also identified whether the
contracting office awarded each contract in compliance with single-bid guidance and
properly coded each contract in FPDS-NG.

We obtained contract modifications and related single-bid competitive contracts from the
Electronic Data Access database for the 87 contract modifications reviewed within the
sample. We reviewed the modification documentation to determine if the modification
was for a single-bid competitive knowledge-based services contract issued more than
3 years prior, the modification was within the scope of work of the base contract, and
whether cost overruns occurred. We identified that 47 of 87 contract modifications,
valued at $461.3 million, were for single-bid competitive knowledge-based services.

To accomplish the audit objectives, we:
   		 met with DPAP officials to determine their responsibilities as they related to
       awarding single-bid contract actions. We discussed their duties related to the
       monitoring of contract competition, the establishment of service competition
       goals, the chairing of quarterly Competition Advocate meetings, as well as, the
       issuance of single-bid contract policy.

    		 met with Army, Navy, and Air Force contracting officials to obtain an
        understanding of their roles and responsibilities as they apply to the awarding of
        single-bid contract actions. We discussed the impact of the single-bid guidance
        on contract negotiations. We also discussed efforts to reduce ineffective
        competition, as well as, their interactions with OUSD (AT&L) regarding
        competition statistics. They provided solicitations, bid proposals, price or cost
        analysis documentation, and business clearance negotiation memorandums for the
        contracts in our audit sample. During June 2012, the Air Force provided
        additional contract documentation to support contracts in our audit sample.


                                            25


   		 reviewed the following OUSD (AT&L) single-bid guidance to determine whether
       DoD followed applicable guidance when awarding competitive contracts after
       receiving a single offer: “Better Buying Power: Guidance for Obtaining Greater
       Efficiency and Productivity in Defense Spending,” September 14, 2010;
       “Implementation Directive for Better Buying Power-Obtaining Greater Efficiency
       and Productivity in Defense Spending,” November 3, 2010; “Improving
       Competition in Defense Procurements,” November 24, 2010; and, “Improving
       Competition in Defense Procurement-Amplifying Guidance,” April 27, 2011.

Use of Computer-Processed Data
To perform this audit, we used solicitations in Federal Business Opportunities, contract
actions in the Electronic Document Access database, and the universe of single-bid
contract action reported in FPDS-NG. To assess the accuracy of the computer-processed
data, we compared data in the Federal Business Opportunities and Electronic Document
Access to data in the FPDS-NG. We also compared the Federal Business Opportunities,
Electronic Document Access, and FPDS-NG data to contract awards, solicitations,
negotiations, proposal analyses, and other contract documentation from the contract files
provided by the Services’ contracting offices. We relied on the contract file
documentation provided by the Services’ contracting officers for our analysis. As a result
of our analysis, we concluded that data obtained through the Federal Business
Opportunities and the Electronic Document Access was sufficiently reliable to
accomplish our audit objectives. We also concluded that there were several instances of
miscoding in the FPDS-NG data; however, the FPDS-NG data was sufficiently reliable to
identify a universe of single-bid contract actions, identify our nonstatistical sample, and
accomplish our audit objectives.

Use of Technical Assistance
We worked with the DoD Office of Inspector General Quantitative Methods Division to
determine the nonstatistical sample selection.

Prior Coverage
During the last 5 years, the Government Accountability Office (GAO) and the DoD
Inspector General each issued a report with findings related to the award of competitive
single-bid contracts. Unrestricted GAO reports can be accessed over the Internet at
http://www.gao.gov. Unrestricted DoD Inspector General reports can be accessed at
http://www.dodig.mil/audit/reports.

GAO
GAO-10-833, “Opportunities Exist to Increase Competition and Assess Reasons When
Only One Offer Is Received,” July 26, 2010

DoD IG
Report No. D-2009-082, “SeaPort Enhanced Program,” May 6, 2009



                                            26


Appendix B. Services’ Implementation of
Single-Bid Guidance for 78 Sample Contracts
We reviewed 78 single-bid competitive contracts issued by the Army, Navy, and Air
Force. We identified that the Services did not follow DoD single-bid guidance when
awarding 31 competitive contracts, valued at approximately $656.1 million, out of the
sample of 78 competitive contracts, valued at approximately $1 billion, that we reviewed.
Table B-1 illustrates the breakout of single-bid adherence by Service.

              Table B-1. Implementation of Single-Bid Guidance By Service
  Service     Total       Value             In           Value           Not in         Value
             Sample      (millions)    Compliance       (millions)    Compliance       (millions)
                                       with Single-                  with Single-bid
                                           Bid                          Guidance
                                        Guidance
 Army          36         $670.2            12           $29.4             24          $640.8
 Navy          25          259.3            21           257.2              4             2.1
 Air           17           72.5            14            59.2              3            13.3
 Force
 Total         78       $1,001.9*           47          $345.8             31          $656.1*
*Column does not sum because of rounding.




                                                 27


Office of the Under Secretary of Defense for Acquisition,
Technology, and Logistics Comments




                   Click to add JPEG file




                                     28
Click to add JPEG file




                 29
Department of the Army Comments






                 Click to add JPEG file




                                    30
Click to add JPEG file




                 31
Click to add JPEG file




                 32
Department of the Navy Comments






                 Click to add JPEG file




                                    33
                            Final Report 

                             Reference






Click to add JPEG file   Revised






                 34
Click to add JPEG file




                 35
Click to add JPEG file




                 36
Click to add JPEG file




                 37
Click to add JPEG file




                 38
Click to add JPEG file




                 39
Department of the Air Force Comments






                 Click to add JPEG file




                                  40
                           Final Report 

                            Reference






Click to add JPEG file




                         Management
                         approved FOUO
                         comments can be
                         decontrolled




                 41
                           Final Report 

                            Reference






Click to add JPEG file




                         Management
                         approved FOUO
                         comments can be
                         decontrolled




                 42
 
